NO.

IN THE SUPREME COURT OF THE UNITED STATES

MARCUS HANSERD,
Petitioner,
v
TONY TRIERWEILER,
Respondent.

APPENDIX A

Page 3 of 4
Hanserd v. Trierweiler

Q Neutral
As of: July 29.2020 5:57 PM Z

Hanserd v. Trierweiler
United States Court of Appeals for the Sixth Circuit
February 25. 2020, Filed
No. 18-2404

Reporter
2020 U.S. App. LEXIS 5743 *
MARCUS HANSERD. Petitioner-Appellant, v. TONY
TRIERWEILER, Warden, Respondent-Appellee.

Notice: NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION. SIXTH CIRCUIT RULE 28 LIMITS
CITATION TO SPECIFIC SITUATIONS. PLEASE SEE
RULE 28 BEFORE CITING IN A PROCEEDING IN A
COURT IN THE SIXTH CIRCUIT. IF CITED. A COPY
MUST BE SERVED ON OTHER PARTIES AND THE
COURT. THIS NOTICE IS TO BE PROMINENTLY
DISPLAYED IF THIS DECISION IS REPRODUCED.

evidentiary, defaulted, innocence, deadline, earliest,
one-year, suppress, corpus, weapon, opine

Counsel: Marcus Hanserd, Petitioner - Appellant, Pro
se, Ionia, Ml.
For TONY TRIERWEILER. Warden, Respondent Appellee: Linus Richard Banghart-Linn, Assistant
Attorney General, John S. Pallas, Office of the Attorney
General, Lansing, Ml; Rebecca Ashley Berels, Michigan
Department of Attorney General, Lansing, Ml.

Judges: Before: NORRIS, SUTTON, and BUSH. Circuit
Judges.
Subsequent History: Rehearing denied by, En banc
Hanseidv. Trierweiler. 2020 U.S. App. LEXIS 17406
(6th Cir.. June 2. 2020)

Opinion
Prior History: [*1] ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF MICHIGAN.

Hanserd v. Tiiemeiler. 2018 U.S. Dist. LEXIS 185159(
ED. Mich.. Oct. 30. 20181

Core Terms
ineffective-assistance, identification, ineffective, timebarred. in-court, eyewitness, appointment, certificate,

ORDER
Marcus Hanserd, a pro se Michigan prisoner, appeals a
district court judgment denying his amended petition for
a writ of habeas corpus filed pursuant to 28 U.S.C. $
2254. We granted a certificate of appealability as to one
of the five claims raised in Hanserd's petition. The case
is now before the court on the merits of this claim and
has been referred to a panel of the court that, upon
examination, unanimously agrees that oral argument is
not needed. See Fed. R. App. P. 34(a).
In 2011, a jury found Hanserd guilty of first-degree
murder, Mich. Como. Laws 6 75Q.316(1)(a)\ carjacking,

Mich. Como. Laws $ 750.529a: being a felon in
possession of a weapon, Mich. Comp. Laws $ 750.224f:
carrying a dangerous weapon with unlawful intent, Mich.
Comp. Laws $ 750.226: and four counts of possession
of a firearm during the commission of a felony, Mich.
Comp. Laws $ 750.227b. The trial court sentenced him
as a habitual offender, second [*2] offense, to life in
prison. The Michigan Court of Appeals affirmed, People
v. Hanserd. No. 305804. 2012 Mich. Aop. LEXIS 1734.
2012 WL 3960227 (Mich. CL Ano. Sent. 11. 2012) (per
curiam), and the Michigan Supreme Court denied leave
to appeal. People v. Hanserd, 493 Mich. 952, B28
N. W. 2d 45 (Mich. 2013) (mem.).
Hanserd then filed a motion for relief from judgment,
which the trial court denied. People v. Hanserd, No. 10034377-FC-5 (Saginaw Cty. Cir. Ct. Dec. 4, 2013). The
Michigan Court of Appeals affirmed, People v. Hanserd.
No. 322993, 2014 Mich. App. LEXIS 2960 (Mich. Ct.
Ano. Dec. 11. 2014). and, on December 22, 2015, the
Michigan Supreme Court denied leave to appeal.
People v. Hanserd, 498 Mich. 947, 872 N.W.2d 435
(Mich. 2015) (mem.).
On March 18, 2016, at the earliest, Hanserd filed his
original §.2254 petition by placing it in the prison mail.
His original petition raised four grounds for relief—
namely, that (1) there was insufficient evidence to
support his convictions; (2) the trial court deprived him
of a fair trial and his due process rights through
improper evidentiary rulings, through instructional
errors, and by denying funds for an expert witness to
opine on eyewitness identification; (3) his trial counsel
was ineffective for failing to call witnesses to establish
his innocence; and (4) the evidence was insufficient to
convict him because the medical examiner testified that
the autopsy showed that the crime could not have
been 1*3] committed in the manner that an eyewitness
claimed. On November 2, 2016, at the earliest, Hanserd
filed an amended petition in which he claimed that his
trial counsel was ineffective for failing to file a motion to
suppress eyewitness Dawn Leuders's pretrial and in­
court identification.
The district court denied the petition, as amended, and
declined to issue a certificate of appealability. This
court, however, granted Hanserd a certificate of
appealability on the ineffective-assistance claim raised
in his amended petition.
In this appeal, Hanserd reiterates his ineffectiveassistance claim, and he also argues that the district
court (1) incorrectly found that his ineffective-assistance
claim alleged that his trial counsel neglected to

challenge
Leuders's
preliminary
examination
identification instead of her in-court identification, and
(2) should have held an evidentiary hearing. He also
moves for the appointment of counsel. The warden
argues that Hanserd is not entitled to habeas relief
because his ineffective-assistance claim is time-barred,
is procedurally defaulted, and lacks merit. Hanserd
responds that his ineffective-assistance claim is timely
because his original petition—filed [*4] before the
statute of limitations expired—claimed that "the state
failed to give [him] funds to appoint an expert in the field
of eyewitness identification.H
We review de novo the district court's decision to deny a
petition for a writ of habeas corpus under $ 2254. Burton
v. Renico, 39/ F.3d 764. 770 (6th Cir. 2004). and may
affirm that decision "on any grounds supported by the
record even if different from the reasons of the district
court," Abercrombie & Fitch Stoies, Inc, v. Am. Eagle
Outriders. Inc.. 280 F.3cl 619. 629 (6th Cii. 2002).
We agree with the warden that Hanserd's ineffectiveassistance claim is time-barred. This claim was first
raised in Hanserd’s amended petition, and he does not
dispute that the amended petition was filed beyond the
statute of limitations set forth in 28 U.S.C. S 2254(d).
Instead, he appears to argue that his amended petition
relates back to his original, timely petition, such that his
ineffective-assistance claim is not time-barred.
Amendments to pleadings may be made after the
statute of limitations has run if they "arose out of the
conduct, transaction, or occurrence set out . . . in the
original pleading." Fed. R. Civ. P. I5(c)n)/B). In the
federal habeas context, an amended claim relates back
only when it arises "from the same core facts as the
timely filed claims." Mavle v. Felix. 545 U.S. 644. 657.
125 S. Cl. 2562. 162 L. Ed. 2d 582 (2005): see also
Cowan v. Stovall. 645 F.3d 815. 818 (6th Cir. 2011)
(n[W]hen a prisoner files an original petition within the
one-year [*5] deadline, and later presents new claims
in an amended petition filed after the deadline passes,
the new claims relate back to the date of the original
petition if the new claims share a 'common core of
operative facts' with the original petition." (quoting
Mavle. 545 U.S. at 6G4)).
Here, Hanserd's claim that his trial counsel should have
filed a motion to suppress Leuders's in-court
identification is based on a separate set of core facts
than those set forth in his original petition. Although
Hanserd claimed in his original petition that the trial
court failed to provide him funds for an expert witness to

Page 4 of 4
Hanserd v. Trierweiler
opine on eyewitness identification and that his trial
counsel was ineffective for failing to call witnesses to
support his actual-innocence defense, he did not
claim—nor assert any facts that would Imply—that his
trial counsel was ineffective for falling to challenge
Leudets's in-court Identification of him as the
perpetrator. In other words, while Hanserd's original
claims alleged trial court error and the ineffective
assistance of counsel with respect to an Issue unrelated
to Leuders's In-court identification, his supplemental
claim alleged the Ineffective assistance of counsel
specifically with respect [*6] to Leuders's In-court
identification. Thus, because the ineffective-assistance
claim raised in Hanserd's untimely amended petition
lacks a "common core of operative facts" with the claims
raised in his timely original petition, we find that the
supplemental ineffective-assistance claim is timebarred. And although equitable tolling or a showing of
actual Innocence may permit review of an otherwise
time-barred claim, see McQuIaain v. Perkins. 569 U.S.
383, 386, 133 S. Ct. 1924. 185 L Ed 2d 1019 (2013):
Holland v, Florida, 560 U.S. 631. 649. 130 S. Cl. 7543
177 L. Ed. 2d 130 (20101: Hanserd has .neither argued
nor shown that either of these exceptions to 6 2284td)'s
one-year limitations period applies. Consequently,, we
find that the ineffective-assistance claim raised, in
Hanserd's amended petition is barred by the statute of
limitations. And because Hanserd's ineffectiveassistance claim, is time-barred, we need not address
either the merits of fhe claim or the warden's argument
that the claim is procedurally defaulted.

•T

i

Accordingly, we AFFIRM the district court's judgment
and DENY the motions for the appointment of counsel.

.Knri of UrKHtnenf

:

NO.
IN THE SUPREME COURT OF THE UNITED STATES

MARCUS HANSERD,
Petitioner,
v
TONY TRIERWEILER,
Respondent.

APPENDIX B

O Neutral
As of: July 29, 2020 5:59 PM Z

Hanserd v. Trierweiler
United States Court of Appeals for the Sixth Circuit
June 2, 2020, Filed
No. 18-2404

Reporter
2020 U.S. App. LEXIS 17406 *
MARCUS HANSERD, Petitioner-Appellant, v. TONY
TRIERWEILER, WARDEN, Respondent-Appellee.

the full court.* No judge has requested a vote on the
suggestion for rehearing en banc.
Therefore, the petition is denied.

K!n»l ol Oncmncnf

Prior History: Hanserd v. Trierweiler, 2020 U.S. Add.
LEXIS 5743 (6th Cir. Mich.. Feb. 25. 2020)

Counsel: [*1] Marcus Hanserd, Petitioner - Appellant,
Pro se, Ionia, Ml.

For TONY TRIERWEILER, Warden, RespondentAppellee: Linus Richard Banghart-Linn, Assistant
Attorney General, Rebecca Ashley Berels, John S.
Pallas, Office of the Attorney General of Michigan,
Lansing, Ml.

Judges: BEFORE: NORRIS, SUTTON, and BUSH,
Circuit Judges.

Opinion
ORDER
The court received a petition for rehearing en banc. The
original panel has reviewed the petition for rehearing
and concludes that the issues raised in the petition were
fully considered upon the original submission and
decision of the case. The petition then was circulated to
’Judge Larsen recused herself from participation in this ruling.

NO.
IN THE SUPREME COURT OF THE UNITED STATES

MARCUS HANSERD,
Petitioner,
v
TONY TRIERWEILER,
Respondent.

APPENDIX C

Page 3 of 12
Hanserd v. Trierweiler

^ Positive
As of: July 29, 2020 6:08 PM Z

Hanserd v. Trierweiler
United States District Court for the Eastern District of Michigan, Southern Division
October 30, 2018, Decided; October 30, 2018, Filed
Case No. 16-cv-11099

Reporter
2018 U.S. Dist. LEXIS 185159 *; 2018 WL 5619698
STATES DISTRICT JUDGE.
MARCUS HANSERD, Petitioner, v. TONY
TRIERWEILER,1 Respondent.
Opinion by: MATTHEW F. LEITMAN

Subsequent History: Affirmed by, Motion denied by
Hanserd v. Trierweiler. 2020 U.S. Aon. LEXIS 5743 (6lh
Cir. Mich.. Feb. 25. 2.020)

Opinion

issue Hanserd a certificate of appealability. However, it
will grant him permission to appeal in forma pauperis.

testimony and denying funds for an e[x]pert on
eyewitness identificatioQn problems; and improper
instructional errors.

i

III. Petitioner was denied his right to a fair trial and
effective assistance of trial counsel by his trial
counsel's failure to call witnesses to establish
petitioner’s innocence. US Const, Am VI, XIV; Mich
Const, of 1963, art 1 sec 17. 20.

Hanserd was [*2] convicted following a jury trial in the
Saginaw County Circuit Court. The Michigan Court of
Appeals described the underlying facts as follows:
Defendant's convictions arise from the murder of
Sheric Harris and related crimes that occurred after
midnight on April 17, 2004. Two witnesses testified
that defendant had committed a robbery at gun
point at a Stop N Shop just before the shooting
occurred at the Circle K party store. Defendant was
identified by a witness at trial as the shooter from
the Circle K. The same witness had also identified
defendant in a corporeal lineup before trial.
Evidence that the victim had been driving a
Camaro, that defendant left the scene of the
shooting in a Camaro, and that defendant’s blood
was found in the Camaro the victim had been
driving once it was recovered, was also presented.
People V. Hanserd 2.01? Mich. Arm. LEXIS 1734. 2012
WL 3966227. at '1 (Mich. Cl. Ado. Sept. 11. 2012).

Prior History: Hanserd v. Woods. 2017 U.S. Disl.
LEXIS 76995 (E.D. Mich.. May 22. 2017)

Core Terms
identification, eyewitness, lineup, certificate, shooting,
shooter, ineffective, corpus, credibility, unreliable,
pauperis, forma, appointment, photographic, reliability,
pre-trial, remember, murder, trier, shot

Judges: [*1J Hon. MATTHEW F. LEITMAN, UNITED

1 The proper respondent in a habeas action is the habeas
petitioner’s custodian, which in the case of an incarcerated
habeas petitioner is the warden of the facility where the
petitioner is incarcerated. See Edwards v. Johns, 450
F.Supp.2d 755, 757 (E.D. Mich. 2006). See also Rule 2(a), 28
U.S.C. § 2254. Since the filing of the petition, Petitioner
Marcus Hanserd has been transferred to the Bellamy Creek
CerrecUenaL-Focili^T-where' TQny..»T.rierweiler is the wardQftr
Therefore, the Court amends the caption to reflect the fact that
Trierweiler is the proper Respondent to this action.

OPINION AND ORDER (1) DENYING PETITION FOR
A WRIT OF HABEAS CORPUS (ECF #11 AND
AMENDED PETITION IECF #11). 12) DECLINING TO
ISSUE A CERTIFICATE OF APPEALABILITY. AND
(31 GRANTING LEAVE TO APPEAL IN FORMA
PAUPERIS
Petitioner Marcus Hanserd is a state prisoner in the
custody of the Michigan Department of Corrections. On
March 25, 2016, Hansered filed a pro se petition for a
writ of habeas corpus in this Court pursuant to 28
U.S.C. $ 2254. (See ECF #1.) Hanserd filed an
amended petition on November 7, 2016. (See ECF
#11.) In the petitions, Hanserd challenges his statecourt convictions for first-degree premeditated murder,
....
0.3./6/jfa; carjacking, Mich.
Comp. Laws § 750.529a\ felon in possession of a
weapon, Mich...Com/j_,__iL.avys....§...750,224f-, carrying a
dangerous weapon with unlawful intent, Mich. Comp,
Laws $ 750.226’. and four counts of possession of a
firearm in the commission of a felony, Mich. Comp.
Laws $ 750.227b.
The Court has reviewed Hanserd’s claims and
concludes that he is not entitled to federal habeas relief.
Accordingly, for the reasons set forth below, the Court
will DENY his petitions. The Court will also decline to

Hanserd appealed his convictions to the Michigan Court
of Appeals, and that court affirmed. See id. Hanserd
then sought leave to appeal in the Michigan Supreme
Court, and that court denied leave. See People v.
Hanserd, 493 Mich. 952, 828 N. W.2d 45 (Mich. 2013).
Hanserd next filed a post-conviction motion for relief
from judgment with the state trial court. That court
denied the motion. See People v. Hanserd, No. 10034377-FC-5 (Saginaw [*3] Cty. Cir. Ct., Dec. 4, 2013);
reconsideration den. No. 10-034377-FC-5 (Saginaw
Cty. Cir. Ct., Feb. 2, 2014). The Michigan appellate
courts denied Hanserd leave to appeal that decision.
See People v. Hanserd, No. 322993 (Mich. Ct. App.
Dec. 11, 2014); Iv. den. 498 Mich. 947, 872 N.W.2d 435
(Mich. 2015).
Hanserd thereafter filed the instant petitions for federal
habeas relief in this Court. In those petitions, he seeks
relief on the following grounds:
I. Petitioner's conviction should be overturned
because there was insufficient credible evidence,
presented at trial to prove that the petitioner was
guilty of the crimes.
II. The trial court denied the petitioner a fair trial and
his due process rights through improper evidentiary
rulings that that [sic] included allowing 404b

IV. Testimony of the medical examiner that
performed the autopsy showed that the crime could
not have been committed in the manner [*4] the
eyewitnesses claimed, and thus there was
insufficient evidence to convict the petitioner.
V. Ineffective assistance of trial counsel (for failing
to challenge the eyewitness' pre-trial identification).

II
The majority of Hanserd's claims are reviewed under the
standards established in the Antiterrorism and Effective
Death Penalty Act of 1996, 28.. U.S.C... 5.. 2254(d)
("AEDPA"). AEDPA provides that:
An application for a writ of habeas corpus on behalf
of a person in custody pursuant to the judgment of
a State court shall not be granted with respect to
any claim that was adjudicated on the merits in
State court proceedings unless the adjudication of
the claim (1) resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceedings.
28 U.S.C. § 2254(d).
"The question under AEDPA is not whether a federal
court believes the state court’s determination was
incorrect but whether that determination was
unreasonable — a substantially higher threshold."
Schriro v. Landrician, 550 U.S. 465. 473. 127 S. CL
7933. 167 L. Ed. 2d 836 (2007).

III
Respondent first [*5] argues that portions of Hanserd’s
first and second claims and his fourth claim are

Page 4 of 12
Hanserd v. Trierweiler
IW2S1- But, on habeas review under AEPDA, this claim
must survive "two layers" of deference:

Procedural default is not a jurisdictional bar to review of
a habeas petition on the merits. See Trest v. Cain 07?
»-S, 87, 39. 118 S. Cl. 478 139 L. Ed ?ri 444 rr007i |n
addition, "federal courts are not required to address a
procedural-default issue before deciding against the
petitioner on the merits." Hudson v. Jonas 351 F.3d

We have made clear that Jackson claims face a
high bar in federal habeas proceedings because
they are subject to two layers of judicial deference.
First, on direct appeal, it Is the responsibility of the
jury—not the court—to decide what conclusions
should be drawn from evidence admitted at trial. A
reviewing court may set aside the jury's verdict on
the ground of insufficient evidence only if no
rational trier of fact could have agreed with the jury.
And second, on [*7] habeas review, a federal court
may not overturn a state court decision rejecting a
sufficiency of the evidence challenge simply
because the federal court disagrees with the state
court. The federal court instead may do so only if
the state court
decision
was
objectively
unreasonable.

Lambrix v. Singletary.
520 U S. 51 fl, 525. 117 S. Cl. 1517. 137 1 Fd In 771
(1997}). This Court believes that it would be more
efficient to proceed to the merits of Harrserd's claims,
particularly where several of the defaulted claims are
interrelated with the properly preserved claims.
Respondent also argues that Hanserd's fifth claim,
which Hanserd raised for the first time In his amended
habeas petition, is barred by the statute of limitations
because the amended petition was filed after the
limitations period expired, and the fifth claim does not
relate back to the claims filed in the initial petition.

■■

Th
. .
,
.
ine statute of limitations does not constitute a
jurisdictional bar to habeas review. Therefore, a federal
court can, in the Interest of judicial economy, proceed
directly to the merits of a habeas petition even If the
claims therein are barred by a limitations period. See
Smith v. Slate of Ohio Deot. of Rehabilitation. 403 F 3d

Se!§minv1..Johnson. 566 U.S. 650. 651. 132 S. Cl.
3Q60, 182 L. Ed. 2d 978 {2012) (internal punctuation
and citations omitted). See also Brown v Konlah 007
F.3d 191. 205 1611, Cir. 7000)10^ iJ.
analyzing a Jackson claim on habeas review, reviewinq
court "cannot even Inquire whether any rational trier of
fact would conclude that petitioner 0 is guilty of the
offenses with

xrs dHrrSSn

Court need ( 6] not resolve the dispute over the
timeliness of Hanserd’s amended habeas petition,
Assuming without deciding that the amended petition
was timely, Hanserd's fifth claim fails on the merits for
the reasons stated below. See Ahart v. Bradshaw 122
F. Aoo'x 188. 192 (6th Cir 70001

The Court now turns to each of Hanserd's insufficie ncyof-the-eviderice claims.

IV

1

conclusion that a rational trier of fact could find fthe
petitioner) guilty beyond a reasonable doubt based upon
the evidence introduced at trial"),

Hanserd first, contends that there was Insufficient
evidence to establish his identity.as the perpetrator of
the crime. The Michigan Court of Appeals considered
this claim on direct review and rejected it:

A
In Hanserd’s first and fourth claims, he argues that there
was insufficient evidence to convict him of the charged
crimes. The question before the Michigan appellate
courts on Hanserd's sufficiency-of-the-evidence claims
was "whether, after viewing the evidence In the light
most favorable to the prosecution, any rational trier of
fact could have found the essential elements of the
crime beyond a reasonable doubt.”
Cf. 2781. 61 L Ed. 2d 560

Page 5 of 12
Hanserd v. Trierweiler

procedurally defaulted for various reasons.

Defendant argues that there were a number of
inconsistencies
■ between
the
Identifying
witness's (*8j
testimony and
her previous
statements to police that render her identification of
defendant unreliable. Additionally, defendant
argues that there were Inconsistencies between
various witnesses' testimony, further adding to the
unreliability of the identification. However, all
problems that defendant points out with the

identification are credibility and weight issues,
regarding their observations of the shooting. But when a
which are determinations to be made by the jury!
federal court reviewing a state-court conviction on
We will not interfere with the jury's role In
habeas review Is "faced with a record of historical facts
determining credibility. When looking at the
that supports conflicting inferences!, the federal court]
testimony in a light most favorable to the
must presume—even if it does not affirmatively appear
prosecution, a jury could have reasonably
In the record—that the trier of fact resolved any such
determined that defendant was the shooter.
conflicts in favor of the prosecution, and must defer to
Defendant was identified as the shooter both In
that resolution." Cavazos v. Smith 000 u.s. 1. 7 117 s
court and In a physical lineup before trial. An
P*-.
161.L, Ed. 2d 311 (2011i (quoting Jackson. 440
identification by a witness is sufficient evidence to
LLS, at 326). Moreover, the prosecution introduced
support a conviction. Additionally, there was
other evidence that pointed to Hanserd as the
evidence that defendant's blood was found in the
perpetrator, such as evidence that Hanserd's blood was
car the victim had been driving. There was
found in the stolen Camaro. The existence of this other
sufficient evidence presented for the jury to
evidence further confirms that the Michigan Court of
reasonably determine that defendant was the
Appeals did not unreasonably apply Jackson when it
shooter.
rejected Hanserd’s sufficiency of evidence claim. See
[....]
Moreland v. Bradshaw 099 F 3d flrifl. 919-21 lOih r.k
The prosecution [also] offered testimony to 20121. Hanserd is therefore not entitled to federal
habeas relief on this claim.
establish that the victim was driving the Camaro on
the night of the shooting, that defendant was the
shooter, that defendant [*9] drove from the scene
2
in the Camaro, and that defendant’s DNA profile
matched the DNA profile of the blood samples
Hanserd next claims that there was Insufficient evidence
taken from the Camaro. Given this evidence, the
to support his convictions because the testimony of the
jury could have reasonably inferred that defendant
medical examiner established that the murder could not
shot the victim, stole the car, and left his DNA in the
have happened the way that Lueders and other
car. The prosecutor provided enough evidence to
witnesses described the shooting. More specifically,
prove its theory beyond a reasonable doubt and the
Hanerd[*11] argues that Lueders and others testified
jury was responsible for determining what credibility
that he "opened the passenger door and shot into the
and weight to give the evidence.
vehicle three times at point blank range." (Pet., ECF #1
at Pg. ID 63-64.) But Hanserd says that based on the
LEXIS 1731. 7017 WL
medical examiner's testimony regarding the trajectory of
3M6B227. at '2 (internal footnote omitted).
the bullets and where they entered the victim, "[tjhe fact
that no bullets were travelling in a downward angle, nor
Hanserd has not established that the Michigan Court of
from the direction of the suspect, points to the
Appeals ruling was contrary to, or an unreasonable
impossibility that the crime occurred in the manner
application of, clearly established federal law. Here, an
which Ms. Lueders and [another witness] testified to."
eyewitness to the crime — a woman named Dawn
(Id.)
Leudersridentified Hanserd at trial as being the shooter
based on her personal observation of the crime. That The Michigan Court of Appeals considered this claim on
testimony alone was sufficient to support Haserd's direct review and rejected it:
convictions, and it forecloses Hanserd from obtaining
Defendant asserts that [the] medical examiner's
federal habeas relief based upon the insufficiency of the
testimony about bullet paths indicated that the
evidence. See TJtomas v. Pern. SS3 F Aoo’x 430 407.
shooting could not have occurred in the manner
§i... (6th Cir.—2014) (rejecting habeas petitioner's
claimed by the witnesses. However, because it
sufficiency of evidence claim and affirming denial of
cannot be determined which wounds the victim
habeas relief where eyewitness had identified petitioner
received first, and the victim was moving around
as the shooter).
during the Incident, there is no definitive Indication
that the autopsy report was inconsistent with the
Hanserd counters that there were numerous
testimony. Additionally, it was up to the jury to
inconsistencies in[*10] Lueders' testimony as well as
determine what weight to give the evidence.
inconsistencies between the various other witnesses

Page 6 of 12
Hanserd v. Trierweiler
Hanserd. 2012 Mich. Ado. LEXIS 1734. 2012 WL
3966227. at *3.

considered this claim on direct review and rejected it:
Hanserd. 2012 Mich. Aon. LEXIS 1734, 2012 WL
3966227. at *5.

Hanserd has not established that the Michigan Court of
Appeals'
ruling
was
contrary
to,
or
an
unreasonable [*12] application of, clearly established
federal law. Most importantly, Hanserd is wrong when
he argues that Lueders testified that he shot the victim
at "point blank" range, and that Lueders’ testimony is
therefore inconsistent with the medical examiner’s
testimony. Lueders testified only that Hanserd "opened
the passenger doorQ and shot into the vehicle at the
man sitting there." (ECF #10-9 at Pg. ID 491.) Leuders
did not testify how far Hanserd was from the victim
when Hanserd fired the shots, nor did she testify at what
angle Hanserd pointed the gun. Hanserd has not
sufficiently shown how that testimony offered by
Lueders is inconsistent with the testimony of the medical
examiner. Moreover, as noted above, to the extent that
there were conflicts in the evidence, it was for the jury,
not this Court on habeas review, to resolve those
conflicts. See Jackson. 443 U.S. at 326. For all of these
reasons, the Michigan Court of Appeals' decision
affirming the jury's verdict was not contrary to, nor an
unreasonable application of, clearly established federal
law. Hanserd is therefore not entitled to federal habeas
relief on this claim.

3
Finally, Hanserd argues that the jury’s verdict went
against the great weight of [*13] the evidence. A federal
habeas court has no power to grant habeas relief on the
ground that a state conviction is against the great weight
of the evidence because that is a "state-law argument"
and a "federal court is only allowed to review issues of
federal law in a habeas proceeding." Nash v. Ebeilin.
2.58 F. App’x 761. 764 n.4 (6th Cir. 2007). See also Artis
v. Collins, 14 F. App'x 387 (6th Cir. 2001) (declining to
grant certificate of appealability to habeas petitioner on
claim that jury’s verdict was against the manifest weight
of the evidence). Hanserd is therefore not entitled to
federal habeas relief on this claim.

B
Hanserd next alleges that the state trial court deprived
him of a fair trial when it allowed the prosecutor to
introduce evidence that Hanserd had been involved in a
separate armed robbery about thirty minutes before the
carjacking and murder. The Michigan Court of Appeals

Defendant's primary argument is that there were
not sufficient special circumstances between the
shooting at the Circle K and the robbery at the Stop
N Shop to be admissible to prove identity under
Golochowicz. However, both crimes took place
outside convenience stores and both crimes
involved the use of a gun. That the caliber of the
gun used [*14] could have been different is a minor
detail that would go to the weight of the evidence
rather than the admissibility. See People v. Ban era.
451 Mich. 261. 289. 647 N.W.2d 260\ 451 Mich.
261. 547 NW2d 280 (1996). Both crimes also
involved robberies and were committed within a
close proximity and a short time of one another.
Both crimes involved defendant, as identified by
witnesses. The inconsistencies relied on by
defendant to establish that the crimes were not
similar was information for the jury to determine the
weight of the evidence; the differences did not have
a bearing on the admissibility of the evidence.
Barrera. 451 Mich, at 289. The trial court did not
abuse its discretion.
Hanserd has not established that the Michigan Court of
Appeals' ruling was contrary to, or an unreasonable
application of, clearly established federal law. To the
extent that the state trial court violated the Michigan
Rules of Evidence when it admitted this evidence, that
was an error of state law. And, as noted above, "federal
habeas corpus relief does not lie for errors of state law."
Estelle v. McGuire. 502 U.S. 62. 67-68. 112 S. Ct. 475.
116L. Ed. 2d 385 (19911 ("In conducting habeas review,
a federal court is limited to deciding whether a
conviction violated the Constitution, laws, or treaties of
the United States"). This claim is therefore not
cognizable on federal habeas review. [*15] See Setra
v. Michigan Dept, of Corrections. 4 F.3d 1348. 1354 (6th
Cir. 1993). Moreover, Hanserd not shown that that the
trial court's evidentiary rulings were "so egregious" that
they violated his federal due process rights. McAdoo v.
Bo. 365 F.3d 487. 494 (6th Cir. 2004) (explaining that
only when an evidentiary ruling is "so egregious that it
results in a denial of fundamental fairness" may it violate
federal due process rights and warrant federal habeas
relief). Hanserd has therefore failed to establish a right
to federal habeas relief on this claim.

C

Page 7 of 12
Hanserd v. Trierweiler
Hanserd next argues that the state trial court denied him
a fair trial when it refused to appoint him an expert to
testify about the problems of eyewitness identification.
The Michigan Court of Appeals considered this claim on
direct review and rejected it:
Defendant goes through a lengthy analysis of
People v. Anderson, 389 Mich. 155. 205 N.W.2d
461: 389 Mich. 155. 205 NW2d 461 (1973).
overruled on other grounds in People v. Hickman.
470 Mich. 602. 684 N.W,2d 2.67: 470 Mich. 602.
684 NW2d 267 (2004), as well as psychological
studies and cases discussing the problems with
eyewitness identification. However, nowhere in
Anderson or current case law is there a holding that
eyewitness identifications are inherently unreliable.
Defendant does not cite nor is there any current
case law that forbids the use of eyewitness
identification. Again, the jury is responsible for
determining
the
credibility
of
eyewitness
identification. [*16] Davis. 241 Mich. Aon at 700.
Defendant argues that the unreliability of
eyewitness identification made an expert necessary
for proper investigation and trial testimony. He
further asserts that the line-up procedures used in
this case were impermissible and suggestive, and
that an expert was necessary to explain the effects
of a tainted lineup on identification. However,
defendant did not object to the lineup procedure
when it occurred, nor did defendant object to the incourt identification. Furthermore, the record does
not reflect procedures that were impermissibly
suggestive. We will not review identification issues
on appeal if not raised before the trial court. People
v. Whitfield. 214 Mich.App 348. 3S1. 543 N.W.2d
ML 214 Mich. Aoo. 348. 543 NW2d 347 11995).
Moreover, defendant has not demonstrated that he
could not safely proceed to trial absent an expert.
Tanner. 469 Mich, at 443-444. In People v. Cooper.
236 Mich.App 643. 658. 601 N.W.2d 409; 236 Mich.
Aop. 643. 601 NW2d 409 (1999) this Court noted
that it would be obvious to jurors that memories and
perceptions of an eyewitness are sometimes
inaccurate. Defense counsel extensively crossexamined
each witness
and
raised
the
inconsistencies in testimony that defendant points
to on appeal. The issues with identification raised
by defendant were questions of credibility properly
left to the determination of the jury. Davis. 241
Mich.App at 700. The trial court did not abuse its
discretion in denying [*17] defendant's request for
an appointed expert. Tanner. 469 Mich, at 442.

Hanserd. 2012 Mich. Aon. LEXIS 1734. 2012 WL
3966227. at ** 3-4.
Hanserd has not established that the Michigan Court of
Appeals' ruling was contrary to, or an unreasonable
application of, clearly established federal law. Hanserd
has not identified any Supreme Court case which has
recognized that a criminal defendant has a constitutional
right to the appointment of this kind of expert witness.
And there appears to be law to the contrary. For
example, in Mooiev. Tate. 882 F.2d 1107, 1110-11 (6th
Cir. 1989). the Sixth Circuit reversed a district court's
grant of a writ of habeas corpus and held that a
defendant in a state criminal trial was not denied his
constitutional right to a fair trial when the state trial court
excluded expert testimony on the reliability of
eyewitness identification. The court noted that the
examination and cross-examination of the eyewitness at
trial afforded the jury an adequate opportunity to assess
the reliability of a witness' identification of the defendant.
See id; see also Buell v. Mitchell. 274 F.3d 337, 359
(61!) Cir. 2001) {"[Tjhis court has recognized that a
habeas petitioner does not have a constitutional right to
the presentation of expert testimony on the reliability of
eyewitness identification"),
The United States Supreme Court precedent that would
most closely [*18] address petitioner’s claim is Ake v.
Oklahoma. 470 U.S. 68. 83. 105 S. Ct. 1087. 84 LEd.
2d 53 (1985). In Ake, the Supreme Court held that when
an indigent defendant demonstrates to a trial judge that
his or her sanity at the time of the commission of the
offense is to be a significant factor at trial, the state must
provide a criminal defendant access to a competent
psychiatrist who will conduct an appropriate examination
and assist in the evaluation, preparation, and
presentation of the defense. But Hanserd has not
identified any Supreme Court precedent that expands
Ake to the appointment of non-psychiatric experts
generally or identification experts specifically. And this
Court is aware of none. See Ford v. Dretke, 135 F.
App'x 768. 771-72 {5th Cir. 2005) (new rule proposed by
habeas petitioner, requiring the appointment of an
expert on eyewitness identification, did not fall within
one of the exceptions to the rule against the application
of a new rule on collateral review); Jackson y, Ylst, 921
F.2d 882. 886 (9th Cir. 1990) (habeas petitioner’s claim
that his due process rights were violated when he was
denied the appointment of an expert on eyewitness
identification proposed a new rule in violation of Teague
v. Lane, 489 U.S. 288, 109 S. Ct. 1060, 103 L Ed. 2d
334 (1989). and therefore could not serve as a basis for
federal habeas relief). Hanserd has therefore not

Page 8 of 12
Hanserd v. Trferweiler
how long the witness was watching, whether
the witness has seen or known the offender
before, how far away the witness was. whether
the area was well lighted, and the witness's
state of mind at that time.

D
Hanserd next contends that the state trial court erred
when it refused the give the jurors an Instruction
concerning the inherent unreliability of eyewitness
identification. At the beginning of trial, defense counsel
indicated that he gave the court and the prosecution a
copy of a proposed instruction on the eyewitness
Identification but he did not specify the contents of that
Instruction. At the conclusion of trial, defense counsel
asked that this instruction be read to the jury. Defense
counsel acknowledged that the court was going to read
the jurors the standard jury instruction on identification,
but counsel also proposed a "custom jury Instruction
that goes a little bit more in detail and specifically cites
holdings and language from People v. Anderson;2 that I
am still asking the Court to give in addition to or instead
of 7.8:" (ECF #10-12 at Pg. ID 602.) The prosecutor
objected to the proposed instruction on the ground that
it took the holding in Anderson out of context and that
the proposed instruction was more in the form of
advocacy than an instruction. The trial court agreed that
the proposed instruction appeared "to be somewhat
advocacy as opposed to the standard [*20] (jury
instruction], that's why we do that." (Id.) The court
therefore defense counsel's request and indicated that it
would give the standard jury instruction on-identification.
(Id.)
The Michigan Court of Appeals reviewed this claim on
direct appeal and rejected it:
The trial court gave Instructions on the presumption
of innocence and the burden of proof. With regard •
to identification, the trial court denied defendant's
request for a special Instruction and Instead gave
the following:
One of the Issues in this case is' the
Identification of defendant as. the person who
committed the crime. The prosecutor must
prove beyond a reasonable doubt that the
crime was committed and that the defendant
was the person who committed it.
In deciding how dependable an identification is,
think about such things as how good a chance
the witness had to see the offender at the time,

V.

1973).

389 Mich. .1

Page 9 of 12
Hanserd v. Trferweiler

established that he is entitled to federal habeas
relief [*19] on this claim.

Also, think about the circumstances at the time
of the identification, such as how much time
had passed as to the crime, how[*21] sure
the witness was about the identification, and
the witness's state of mind during the
identification.
You may also consider any times that the
witness has failed to Identify the defendant or
made an identification or gave a description
that did not agree with his or her identification
of the defendant during trial. You should
examine the witness's Identification testimony
carefully. You may consider whether other
evidence supports the identification, because,
then, it may be more reliable. However, you1
may use the identification testimony alone to
convict the defendant as long as you believe
the testimony and you find that it proves
beyond a reasonable doubt that the defendant
was the person who committed the crime.
The trial court also gave an instruction on
Inconsistent statements and how the jury could use
them to determine whether the trial testimony was
truthful and to determine the facts of thecase.Defendant's proposed instruction was not a
proper recitation of the applicable law. [People v.l

3966227 et *‘ ri-fi
Hanserd has no. estabtished that the Michigan Court of

ZcaS':,9
was so

appeal.
whether the allegedly-improper Instruction so infected
the entire trial that the resulting conviction violates due
process, not merely whether the instruction is
undesirable, erroneous, [*23] or even "universally
condemned," and an "omission or an incomplete
Instruction!] is less likely to be prejudicial than a
misstatement of the law." Henderson v Kihhe 431 u S
145: 154-165, 97 S. Cl. 1730, 52 L. Ed. 2d 203 [19771
Furthermore, the challenged Instruction must not be
judged in isolation but must be considered in the context
of the entire jury charge. See Jones v United Slates
527 U.S. 373. 391. 119 S q, 2090 144 1. Ed, 2d 37n
<19991.
Hanserd has not met this demanding standard. He has
not identified any clearly established federal law that he
was entitled to the Instruction he sought. Nor has
Hanserd established that the state trial court
unreasonably applied Supreme Court precedent when it
refused to give his proposed instruction. For these
reasons, Hanserd has not established that he is entitled
to federal habeas relief on this claim.

^£S!<ss^2MM£!kABlLlS33LBLB06Jl09JiWI2d
•

595 (2005)/. It recapped commentary in [Poodle v.l
Anderson [389 Mich. 155. 205 N w.2ri 4R1 fig7.1 n
about the problems inherent in eyewitness
testimony. However, as discussed above, nowhere
in Anderson or current case law was there a
holding 1*22] that eyewitness identifications are
Inherently
unreliable.
Defendant's
proposed
■instruction skewed Anderson and would likely have
confused the jury. Defendant's proposed instruction
was better suited as a possible defense argument
rather than as an Instruction for the jury. The
Instructions given by the trial court adequately
protected defendant's rights. The jury had adequate
instruction to be able to determine what weight and
credibility to give the identification evidence, and
the trial court did not abuse its discretion in
declining to give the proposed instruction.

Hanserd. 2012 Mich. Add. LEXIS 1734

omo WL

E
Hanserd next argues that he was denied the effective
assistance of counsel. Federal claims of ineffective
assistance of counsel are subject to the deferential twoprong standard of Strickland v, Washlnnton, 466 U S
668. 104 S Cl. 2052. 80 L. Ed. 2d 674 (19641
Strickland asks: (1) whether counsel was deficient in
representing the defendant: and (2) whether counsel’s
alleged deficiency prejudiced the defense so as to
deprive the defendant of a fair trial. See id. al 687 To
meet the first prong, a petitioner must establish that his
attorney’s representation "fell below an objective [*24]
standard of reasonableness," and must overcome the
"strong presumption that counsel's conduct falls within
the wide range of reasonable professional assistance:
that Is, the defendant must overcome the presumption
that ... the challenged action 'might be considered
sound trial strategy.'" Id. at 688. 689 The "prejudice"

component of a Strickland claim "focuses on the
re“ the “ TZlTTn^?™™
or the
^. Prejudice, under Sir,ck,and requires showng

^ ^
The Court will now examine each of Hanserd s claims of
ineffective assistance in turn,
4
u
Hanserd first ar9ues ,hat his trial counsel was ineffective
when counsel failed to call Mitchell Braddock as a
wi,ness al trlal; haddock originally contacted the police
W!1i!e he was in prison and indicated that he would be
willins ,0 incriminate Hanserd as the shooter in
exchan9e for a sentence reduction. (See Exhibits C, D,
E, and F to the Petition.) However, at the preliminary
examination, Braddock testified both that he [*25] did
not remember what happened the night of the murder
and ,hat he did not see anything. (See ECF #10-2 at Pg.
ID 301)- Braddock further testified that he saw a man
iden,ified as "Little Mark" at the convenience store and
,*1at
Mark" was not Hanserd. (See id. at Pg. ID
304) Braddock then became evasive when the
Pr°secutor tried to refresh his memory, claiming that
,ha> he had no memory of the day of the shooting, that
he was often "high," and that he did not want to talk
about it. (Id. at Pg. ID 301-05.) Hanserd insists that
Braddock could have provided testimony that the man
identified as "Little Mark," and not Hanserd, was not the
shooterThe Mlchi9an Court of Appeals reviewed this claim on
direct review and rejected it:
Defendant argues that counsel should have called
a witness who testified at the preliminary
examination, maintaining the witness said that
defendant was not the shooter. However, defendant
mischaracterizes the witness’s actual testimony.
The witness testified that a man named "little Mark"
was not defendant. However, the witness never
said that "little Mark", and implicitly not defendant,
was responsible for the shooting; instead the
witness claimed he did [*26] not remember the
events on April 17, 2004, Defendant's assertion that
trial counsel erred in failing to call the witness is
meritless. Based on the preliminary examination

Page 10 of 12

Page 11 of 12

Hanserd v. Trierweiler
testimony that the witness did not remember the
incident, the witness would not have helped the
defense. Additionally, the testimony from the
preliminary examination did not assist the defense
because the witness never said "little Mark" and not
defendant was the shooter.
Defendant maintains that the prosecution's whole
case was built around the eyewitness's testimony
and that if called at trial his witness would have
testified that defendant did not commit the crime.
Defendant offers no proof to support his position.
Defendant cites to a police report and letters from
the witness; however, this was not evidence
introduced at trial or included in the lower court
record. Defendant merely claims that favorable
testimony would have been offered. However,
based on the witness' unpredictability, it cannot be
said how he would have testified. The prosecutor
indicated at the preliminary examination that the
witness was expected to-testify differently. And the
witness consistently maintained throughout the
preliminary examination [*27] that he did not
remember the incident. In light of the evidence
offered by the prosecution at trial and the witness's
unpredictability, defense counsel's decision not to
call the witness appears to have been a sound trial
strategy.
People v. Hanserd. 2012 Mich. Add. LEXIS 1734. 2012
Wl 3966227. at 47.
Hanserd has not established that the Michigan Court of
Appeals' ruling was contrary to. or an unreasonable
application of, clearly established federal law. In the
petition,
Hanserd
mischaracterizes - Braddock's
testimony. Braddock did not testify, as Hanserd claims,
that Hanserd was not the shooter. Nor did Braddock
testify that "Little Mark," and not Hanserd. was the
shooter. Indeed, Braddock repeatedly said that he did
not remember anything and was unwilling to definitively
say anything about the shooting. It was not ineffective
assistance for Hanserd’s counsel to not call a witness
who repeatedly testified at the preliminary examination
that he had no information to provide about the
shooting. See Mitiender v. Adams. 376 F.3d 520. 527
(6th Cir. 2004) (defense counsel has no obligation to
present evidence or testimony that would not have
exculpated the defendant). The Michigan Court of
Appeals' rejection of this ineffective assistance of
counsel claim was therefore not unreasonable. Thus,
Hanserd is not entitled [*28] to federal habeas relief on
this claim.

Hanserd v. Trierweiler
inadmissible.

2
In Hanserd’s amended habeas petition, he claims that
his trial counsel was ineffective when counsel failed to
move for the suppression of Lueders' pre-trial
identification. Hanserd argues that the pre-trial
identification should have been suppressed because (a)
there was no counsel present at a photographic lineup
and (b) Lueders was informed after she had identified
Hanserd at the lineup that she had picked out the right
person. Hanserd is not entitled to federal habeas relief
with respect to either of these claims.3

a
Hanserd first argues that his trial counsel should have
moved to exclude the photographic identification
because Hanserd did not have counsel present at the
lineup. However, Hanserd has not identified any
authority to support the proposition that criminal
defendants have a federal constitutional right to have
counsel present at a photographic lineup. Indeed, a pre­
trial photographic identification is not a critical stage
under the Sixth Amendment at which counsel is
required to be present. See United States v. Ash. 413
U.S. 300. 321. 93 S. Ct. 2568. 37 L. Ed. 2d 619 <1973):
Van v. Jones. 475 F.3d 292. 311 (6th Cir. 2007). The
absence of counsel at the photographic lineup therefore
provided no basis to suppress the identification. Thus,
Hanserd's counsel was not ineffective [*29] for failing to
move to exclude the identification on that basis. See
United States v. Sanders. 404 F.3d 980. 986 (6th Cir.
2005) (counsel is not ineffective for failing to make a
futile objection).

b
Hanserd next claims that his trial counsel should have
moved to suppress the pre-trial identification because
the lineup was unduly suggestive. More specifically,
Hanserd argues that the officer who conducted the
lineup told Lueders after she positively identified
Hanserd that she had picked out the right person, and
that post-identification statement rendered the lineup

3 As noted in Section III above, Respondent has raised serious
arguments that these claims are procedurafly defaulted and/or
were filed after the expiration of the applicable statute of
limitations. However, because the Court concludes that the
claims fail on the merits, it will consider them.

In order to determine whether an identification
procedure violates due process, courts look first to
whether the procedure was impermissibly suggestive; if
so, courts then determine whether, under the totality of
circumstances, the suggestiveness has led to a
substantial likelihood of an irreparable misidentification.
See Neil v. Biooets. 409 U.S. 188. 93 S. Ct. 375. 34 L
Ed. 2d 401 (1972). Courts consider five factors when
determining the reliability of identification evidence: (1)
the witness's opportunity to view the criminal at the time
of the crime; (2) the witness's degree of attention at the
time of the crime; (3) the accuracy of the witness’s prior
description of the defendant; (4) the witness's level of
certainty when identifying 1*30] the suspect at the
confrontation; and (5) the length of time that has
elapsed between the time and the confrontation. See id
a/ 199-200.
Hanserd has not even attempted to apply that governing
test here. Nor has he identified any authority to support
his claim that the lineup was rendered unduly
suggestive by the officer's comments made after
Lueders had already positively identified him. Finally,
the Court notes that while reviewing a related claim, the
Michigan Court of Appeals stated that the "record does
not reflect procedures that were impermissibly
suggestive." Hanserd, 2012 WSL 3966227, at *4.
Simply put, Hanserd has not shown that his counsel had
any basis to object to the lineup because it was unduly
suggestive. He has therefore failed to establish that his
counsel was ineffective for failing to object on this basis.
See Sanders. 404 F.3d at 986.
As Hanserd has failed to demonstrate entitlement to
federal habeas relief with respect to any of his claims,
the Court will DENY his habeas petition and the
amended petition (ECF ## 1,11).

v. McDaniel. 529 U.S. 473. 483-84. 120 S. Ct. 1595.
146 L. Ed. 2d 542 (2000). A federal district court may
grant or deny a certificate of appealability when the
court issues a ruling on the habeas petition. See Castro
v. United States. 310 F.3d 900. 901 (6th Cir. 2002).
Here, jurists of reason would not debate the Court's
conclusion that Hanserd has failed to demonstrate
entitlement to habeas relief with respect to any of his
claims because they are all devoid of merit. Therefore,
the Court will DENY Hanserd a certificate of
appealability.
Finally, although this Court declines to issue Hanserd a
certificate of appealability, the standard for granting an
application for leave to proceed in forma pauperis on
appeal is not as strict as the standard for certificates of
appealability. See Foster v. Ludwick, 208 F, Sunn.2d
750. 764 {E.D. Mich. 2002). While a certificate of
appealability may only be granted if a petitioner makes a
substantial showing of the denial of a constitutional
right, a court may grant in forma pauperis status if it
finds that an appeal is being taken in good faith. [*32]
See id. at 764-65: 28 U.S.C. 6 1915(a)(3)-. Fed.
R.App.24 (a). Although jurists of reason would not
debate this Court's resolution of Hanserd’s claims, an
appeal could be taken in good faith. Accordingly, the
Court GRANTS Hanserd permission to proceed in
forma pauperis on appeal.

VI
Accordingly, for the reasons stated above, the Court 1)
DENIES WITH PREJUDICE Hanserd's petition for a writ
of habeas corpus and his amended petition for a writ of
habeas corpus (ECF ## 1, 11), 2) DENIES Hanserd a
certificate of appealability, and (3) GRANTS Hanserd
permission to proceed in forma pauperis on appeal.
IT IS SO ORDERED.

V

isf Matthew F. Leitman

In order to appeal the Court's decision, Hanserd must
obtain a certificate of appealability. To obtain a
certificate of appealability, a prisoner must make a
substantial showing of the [*31]
denial of a
constitutional right. See 28 U.S.C. $ 2253(c)(2). To
demonstrate this denial, the applicant is required to
show that reasonable jurists could debate whether the
petition should have been resolved in a different
manner, or that the issues presented were adequate to
deserve encouragement to proceed further. See Slack

MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE
Dated: October 30, 2018

JUDGMENT
The above entitled matter having come before the Court
on a petition for a writ of habeas corpus. Honorable

Page 12 of 12
Hanserd v. Trierweiler
Matthew F. Leitman, a United States District Court
Judge, presiding, and in accordance with the Opinion
and Order entered on October 30, 2018.
(1) The petition for a writ of habeas corpus is
DISMISSED WITH PREJUDICE.
(2) A certificate of appealability is DENIED.
(3) Petitioner is GRANTED leave to appeal in forma
pauperis.
Dated at Flint, Michigan, this 30th day of October. 2018.
Approved:
/s/ Matthew F. Leitman
MATTHEW F. LEITMAN
United [*33] States District Judge

£(*<! (it i)ocunu-R(

;

NO.

IN THE SUPREME COURT OF THE UNITED STATES

MARCUS HANSERD,
Petitioner,
v
TONY TRIERWEILER,
Respondent.

APPENDIX D

Page 3 of 7
People v. Hanserd

© Neutral
As of: July 29, 2020 6:01 PM 2

People v. Hanserd

The same witness had also identified defendant in a
corporeal lineup before trial. Evidence that the victim
had been driving a Camaro, that defendant left the
scene of the shooting in a Camaro, and that defendant's
blood was found in the Camaro the victim had been
driving once it was recovered, was also presented.

Court of Appeals of Michigan
September 11, 2012, Decided
No. 305804

Reporter
2012 Mich. App. LEXIS 1734 *; 2012 WL 3966227
PEOPLE OF THE STATE OF MICHIGAN, PlaintiffAppellee, v MARCUS DONTI HANSERD, DefendantAppellant.

identification, credibility, eyewitness, shooting, shooter,
unreliable, ineffective, lineup, scene

Judges: Before: SERVITTO, P.J., and FITZGERALD
and TALBOT, JJ.
Notice: THIS IS AN UNPUBLISHED OPINION. IN
ACCORDANCE WITH
MICHIGAN COURT OF
APPEALS RULES, UNPUBLISHED OPINIONS ARE
NOT PRECEDENTIALLY BINDING UNDER THE
RULES OF STARE DECISIS.

Opinion
Per Curiam.

Subsequent History: Leave to appeal denied by
People v. Hanserd, 493 Mich. 952, 828N.W.2d45,
2013 Mich. LEXIS 356 (Apr. 1, 2013)
Request denied by, Motion granted by, Motion denied
by People v. Hanserd. 2014 Mich. App. LEXIS 2960
(Mich. Ct. App.. Dec. 11. 2014)
Habeas corpus proceeding at, Motion denied by,
Without prejudice Hanserd v. Woods. 2017 U.S. Dist.
LEXIS 76995 (E.D. Mich.. Mav 22. 2017)

Prior History: [*1J Saginaw Circuit Court. LC No. 10034377-FC.

Core Terms

A jury convicted defendant of first-degree murder, MCL
750.316(1) (a). carjacking, MCL...750,529a, felon in
possession of a weapon, MCL..750.224f. carrying a
dangerous weapon with unlawful intent, MCL 750.226,
and four counts of possession of a firearm during the
commission of a felony, MCL 750.227b. Defendant was
sentenced as a second-offense offender, MCL 769.10.
to concurrent prison terms of life for first-degree murder,
356 to 480 months for carjacking, 47 to 90 months for
felon in possession of a firearm, and 47 to 90 months for
carrying a dangerous weapon with unlawful intent.
Defendant also received a consecutive two-year prison
term for each count of felony-firearm, to be served
concurrently to each other. Defendant appeals as of
right. We affirm.
Defendant's convictions arise from the murder of Sheric
Harris and related crimes that occurred after midnight
on April 17, 2004. Two witnesses testified that
defendant had committed a robbery at gun point at a
Stop N Shop just before the shooting occurred at the
Circle K party store. Defendant was identified by a
witness at trial [*2] as the shooter from the Circle K.

First, defendant argues that there was insufficient
evidence presented to establish his identity as the
shooter. We disagree. We review sufficiency of the
evidence issues de novo. People v Erickson. 288 Mich
App 192. 195: 793 NW2d 120 (2010). We examine the
evidence in a light most favorable to the prosecution,
and determine whether a rational trier of fact could have
found that every essential element was proven beyond
a reasonable doubt. Id at 196. The prosecutor has the
burden to produce evidence that demonstrates guilt
beyond a reasonable doubt. People v Hasverson. 291
Mich App 171. 175; 804 NW2d 757 (2010). Generally
circumstantial evidence and the reasonable inferences
that can be drawn from that evidence can amount to
sufficient evidence. People v Carinas. 460 Mich 750.
757: 597 NW2d 130 (1999). What inferences can be
drawn from the [*3] evidence and the weight given to
those inferences is a question left to the jury. People v
Hardiman. 466 Mich 417, 428: 6-46 NW2d 158 (2002).
The jury is also responsible for determining questions of
credibility. People v Harrison. 283 Mich App 374, 378:
768 NW2d 98 (20091. We will not interfere with the jury's
role in determining credibility and weight of the
evidence. People v Wolfe. 440 Mich 508, 514: 489
NW2d 748. amended on other grounds 441 Mich 1201
(1992). Instead, when reviewing whether there was
sufficient evidence, we are "required to draw all
reasonable inferences and make credibility choices in
support of the jury verdict." People v Nowack. 462 Mich
392. 400: 614 NW2d 78 (2000).
The prosecutor must prove identity in all criminal
prosecutions because identity is an element of every
crime. People v_..Yost..278 Mich App 341. 356: 749
NW2d... 753....(2008). The jury is responsible for
determining the credibility of identification evidence.
People v Davis. 241 Mich App 69 7, 700: 617 NW2d 381
(2.QQQI Generally, a positive identification by a witness
is sufficient evidence to support a conviction. Id.
Defendant argues that there were a number of
inconsistencies between the identifying witness's
[*4J testimony and her previous statements to police

that render her identification of defendant unreliable.1
Additionally, defendant argues that there were
inconsistencies between various witnesses' testimony,
further adding to the unreliability of the identification.
However, all problems that defendant points out with the
identification are credibility and weight issues, which are
determinations to be made by the jury. Davis. 241 Mich
Asm at 700: Hardiman. 466 Mich at 423. We will not
interfere with the jury’s role in determining credibility.
Wolfe, 440 Mich at 514. When looking at the testimony
in a light most favorable to the prosecution, a jury could
have reasonably determined that defendant was the
shooter. Defendant was identified as the shooter both in
court and in a physical lineup before trial. An
identification by a witness is sufficient evidence to
support a conviction. Davis. 241 Mich Add at 700.
Additionally, there was evidence that defendant's blood
was found in the car the victim had been driving. There
was sufficient evidence presented for the jury to
reasonably determine that defendant was the shooter.
Defendant also argues that there was insufficient
evidence because the prosecution did not prove when
defendant's DNA was deposited in the car. We
disagree. Defendant offers no authority to support the
proposition that the prosecutor had to prove that the
DNA was deposited during the commission of the crime.
A party cannot simply announce a position and then
leave it to this Court to "'discover and rationalize the
basis for his claims, or unravel and elaborate for him his
arguments, and then search for authority either to
sustain or reject his position.'" People v Kevorkian, 248
Mich App 373. 389: 639 NW2d 291 (2001). quoting
Mitcham v Detroit 355 Mich 182. 203. 94 NW2d 388
(1959) (citations omitted). Additionally, the prosecution
does not have to negate every possible theory of
innocence and must instead prove its theory beyond a
reasonable doubt. Nowack, 462 Mich at 4QQ. The
prosecution offered testimony to establish that the victim
was driving the Camaro on the night of the shooting,
that defendant was the shooter, that defendant drove
from the scene in the Camaro, and that defendant’s
DNA profile matched the DNA profile of the blood
samples taken from the Camaro. [*6] Given this
evidence, the jury could have reasonably inferred that
defendant shot the victim, stole the car, and left his DNA
in the car. The prosecutor provided enough evidence to
prove its theory beyond a reasonable doubt and the jury
was responsible for determining what credibility and

1 We note that defense counsel brought
Inconsistencies during [*5j cross-examination.

out

these

Page 4 of 7

Page 5 of 7

People v. Hanserd
weight to give the evidence.
Defendant points out that the prosecutor argued that the
victim was the driver of the Camara, but that the
witnesses to the shooting testified that the victim was
the passenger in a third car. Defendant asserts that the
prosecutor’s theory was therefore insufficient to support
the jury's verdicts. Defendant also maintains that the
witnesses' accounts were inconsistent with the Stop N
Shop robbery because defendant left witnesses at the
first scene but killed someone at the second scene. It Is
possible that the victim got out of the Camaro and was
sitting in the third car talking to someone. Such an
inference would be consistent with the prosecutor's

Defendant goes through a lengthy analysis of People v
Anderson. 389 Mich 1S5: 70S NW2d 4fi 1 119711
overruled on other grounds in People v Hickman. 470
Mich 602: 684 NW2d 267 120041 as well as
psychological studies and cases discussing the
problems with eyewitness Identification. However,
nowhere In Anderson or current case law is there a
holding that eyewitness identifications are inherently
unreliable. Defendant does not cite nor Is there any
current case law that forbids the use of eyewitness
identification. Again, the Jury Is responsible for
determining the credibility of eyewitness identification.
Davis. 241 Mich Aon el 700

theory. Regardless of where the victim was, the jury had
sufficient evidence available to make • reasonable
Merences that defendant shot the victim and stole the

Defendant argues that the unreliability of eyewitness
identification made an expert necessary for proper
investigation and [*9] trial testimony. He further asserts

fhnTZ ^,°re0^r,'h ,
Tk"a!ter Why defendant
shot the victim t*7j but did not shoot anyone at the first
scene. Ail these problems and inconsistencies are
credibility and weight issues that the jury was
responsible for sorting out.

ttiat the line-up procedures used In this case were
impermissible and suggestive, and that an expert was

necessary to explain the effects of a tainted lineup on
identification. However, defendant did not object to the
lineup.procedure when it occurred, nor did defendant
riofonHant
,
,
. .
object to the in-court identification. Furthermore, the
„ ? „ ? .1
*
! 'C examiner^ ,es,lm°"y record does not . reflect procedures that
were
about bullet paths indicated that the shooting could not impermissibly suggestive. We will not
review
have occurred In the manner claimed by the witnesses, identification issues on appeal if not raised before the
wcLTihn^rm
TTrZ
^ 'Wal “^-’PeoPie V Whiltield. 214 Mich Ann 348 3S1mnlnJ^nrtH . I ? h i 1
V'*™ "" 543 NW2rl 347 (1995). Moreover riefenrian,
moving around during the incident, there is no definitive demonstrated that he could not safely proceed to trial
h»
re»°rt WaS lncons'stent "'■‘b absent an expert. Tanner. 489 Mil el 441.444 |n
“p t0 theT|Ury t° People v -Cooner, 236 Mich Ann 643 nsF601 NIAOd
9'Ve ,he evidence- &&aaaL 409 (1999) this Court noted that it would be obvious to
jurors that memories and perceptions of an eyewitness
are sometimes Inaccurate. Defense counsel extensivelyNext, defendant argues that the trial court erred in
cross-examined each witness and raised the
denying his motion for an appointed expert to explain
inconsistencies in testimony that defendant points to on
problems associated with eyewitness Identification. We
appeal.' The issues with identification raised by
disagree. We review "a trial court's decision whether to
»„
„
,
grant an indigent defendant's motion for the . thp
°f “t,PT V
the determination of the jury. Davis, 241 Mtch Ado at
appointment of an expert for an abuse of discretion:"
WO- The [*10] trial court did not abuse its discretion in
People v Tanner. 469 Mich 437 442: 671 NW2d 728
denying defendant's request for an appointed expert.
(2003). An abuse of discretion occurs when the decision
Tanner. 469-Mich al 442.
falls outside the range of principled results. People v
Unger, 278 Mich App 210. 217: 749 NW2d 272 120081
-------------------Defendant also argues that the trial court erred In
The [ 8] trial court Is not required to provide an indigent admitting other acts evidence under MRE 4041b) We
defendant with funds for an expert witness. Tanner, 469 disagree.-We review a trial court's decision to admit
Mich at 442. Instead; an expert -will be -provided for other acts evidence for an abuse of discretion. People v
when the Indigent defendant can demonstrate "a nexus
between the facts of the case and the need for an CWQS1- MRE 404(b) prohibits evidence of other acts if
expert." Id. al 443 (internal quotation marks and citation being offered to prove the character of the defendant.
omitted). The defendant must also demonstrate that he However, MRE 4041b) allows other acts evidence for a
cannot safely proceed to trial absent the expert. Id. al purpose other than character such as "proof of motive,
443. 444.
opportunity, intent, preparation, scheme, plan, or system
4“h aH28W 9

People v. Hanserd

.

in doing an act, knowledge, identity, or absence of
mistake or accident." People v VanderVliel. 444 Mich
52; SOB NW2d 114 11993). amended by 445 Mich 1205
(1994), established that MRE 404119 evidence will be
admissible when (1) the evidence is offered to prove
something other than character. (2) the evidence is
relevant under MRE 402. and (3) the evidence's
probative value is not substantially outweighed by its
prejudicial effect. VanderVliel. 444 Mich at 74-75
Moreover, when using other acts evidence under MRE
4041M to establish Identity, [*11] the following must be
established:
(1) there Is substantial evidence that the defendant
committed the similar act (2) there is some special
quality of the act that tends to prove the defendant's
identity (3) the evidence is material to the
defendant's guilt, and (4) the probative value of the
evidence sought to be Introduced is not
substantially outweighed by the danger of unfair
prejudice. IPeoole v Ho. 231 Mich Aon 178 f8fi585 NW2d 357 119981
citing People v
Golochowicz. 413 Mich 298. 307-30.9; 3fg NW2d
518 11982)3
Finally, only relevant evidence Is admissible. Evidence
is relevant if it has any tendency to make a fact of
consequence more or less probable. MRE 401.
However, relevant evidence will be excluded if the
probative value is substantially outweighed by the
prejudicial effect. MRE 403: People v Ortiz. 249 Mich
App 297, 305-306: 642 NW2d 417 12001) In order to
admit evidence of a defendant’s other acts, the trial
court must still conduct an MRE 403 balancing test.
VanderVliel. 444 Mich nl 75
Defendant's primary argument is that there were not
sufficient special circumstances between the shooting at
the Circle K and the robbery at the Stop N Shop to be
admissible to prove 1*121 Identity under Gotochowicz.
However, both crimes took place outside convenience
stores and both crimes Involved the use of a gun. That
the caliber of the gun used could have been different Is
a minor detail that would go to the weight of the
evidence rather than the admissibility. See People v
Barrera. 451 Mich 261. 289: 547 NW2d 280 1199fil
Both crimes also involved robberies and were
committed within a close proximity and a short time of
one another. Both crimes involved defendant, as
Identified by witnesses. The Inconsistencies relied on by
defendant to establish that the crimes were not similar
was Information for the jury to determine the weight of
the evidence; the differences did not have a bearing on

the admissibility of the evidence. Barrera. 451 Mich el
289. The trial court did not abuse its discretion.
Defendant also argues that he was denied a fair trial
when the trial court denied his request for a special jury
instruction on eyewitness identification. We disagree.
Claims of instructional error are reviewed de novo.
People v Harhmiewicz. 294 Mich Ann 237, 242. 818
NW2d 442. (2011). However, a trial court's decision on
whether a particular Instruction is applicable to the
t*13J facts of a case is reviewed for an abuse of
discretion. Id. When reviewing jury instructions for error,
this Court reviews the Instructions as a whole. People v
Richardson. 490 Mich 115. 119; 803 NW2d 302 120111
The trial court must instruct the Jury on the applicable
law and the instructions must include "all elements of
the charged offenses and any material issues,
defenses, and theories if supported by the evidence.”
People v McGhee. 268 Mich Ann 800, 608: 709 NW?d
5S.S./200S). However, imperfect instructions are not
grounds for reversal if the instructions given "fairly
presented the issues to be tried and adequately
protected the defendant's rights." People v Kowalski
489 Mich 488. 501-502; 803 NW2ri 200 (2.011)
The trial court gave instructions on the presumption of
innocence and the burden of proof. With regard to
identification, the trial court denied defendant's request
for a special instruction and instead gave the following:
One of the Issues In this case is the Identification of
defendant as the person who committed the crime.
The prosecutor must prove beyond a reasonable
doubt that the crime was committed and that the
defendant was the person who committed it.
In deciding [*14] how dependable an identification
is, think about such things as how good a chance
the witness had to see the offender at the time, how
long the witness was watching, whether the witness
has seen or known the offender before, how far
away the witness was, whether the area was well
lighted, and the witness's state of mind at that time.
Also, think about the circumstances at the time of
the identification, such as how much time had
passed as to the crime, how sure the witness was
about the identification, and the witness's state of
mind during the identification.
You may also consider any times that the witness
has failed to identify the defendant or made an
identification or gave a description that did not
agree with his or her identification of the defendant
during trial. You should examine the witness's
identification testimony carefully. You may consider

Page 6 of 7

Page 7 of 7

People v. Hanserd
whether other evidence supports the Identification,
because, then, it may be more reliable. However.
you may use the identification testimony alone to
convict the defendant as long as you believe the
testimony and you find that it proves beyond a
reasonable doubt that the defendant was the

v Odom. 276 Mich Add 407. 415: 740 NW2d 557
(2007).
Defense counsel has wide discretion in trial strategy,
including whether to call or question witnesses, and

what evidence to present. Psoj>!ey_Hp!n,27_9JAic!!Aim
31. 39: 755 NWd 212 12008). [*171 Failure to call a
particular witness will constitute ineffective assistance of
The trial court 1*15J also gave an Instruction on counsel only when the failure would deprive the
inconsistent statements and how
the jury could use defendantof a substantial defense. People v Pavne.
them to determine whether the
trial testimony was 285 Mich Aon 181. 190; 774 NW2"d 714 (2009J. A
substantial defense is one that may have made a
truthful and to determine the facts of the case.
difference in the outcome of the trial. People v Hvland.
Defendant's proposed instruction was not a proper 212 Mich Aoo 701. 710: 538 NW2d 465 (1995). vacated
recitation of the applicable law. Mp_GheeL_268 Mich Apj} in par1 on other grounds 453 Mich 902; 554 NW2d 899
§t_§06. It recapped commentary in Anderson about the (1996). But, this Court will not substitute its judgment for
problems inherent in eyewitness testimony. However, as that of counsel when it comes to matters of trial
discussed above, nowhere in Anderson or current case strategy. Pavne. 285 Mich Aoo et 190. This Court will
law was there a holding that eyewitness identifications aiso not judge counsel's competence with the
are inherently unreliable. Defendant's proposed advantage of hindsight. Id.
instruction skewed Anderson and would likely have
confused the jury. Defendant's proposed instruction was Defendant argues that counsel should have called a
better suited as a possible defense argument rather witness who testified at the preliminary examination,
than as an instruction for the jury. The instructions given maintaining the witness said that defendant was not the
by the trial court adequately protected defendant's shooter. However, defendant mischaracterizes the
rights. The jury had adequate instruction to be able to witness's actual testimony. The witness testified that a
determine what weight and credibility to give the man named "little Mark” was not defendant. However,
identification evidence, and the trial court did not abuse the witness never said that "little Mark", and implicitly
its discretion in declining to give the proposed not defendant, was responsible for the shooting; instead
the witness claimed he did not remember the events on
instruction.
April 17, 2004. Defendant's assertion that |*18] trial
Defendant also argues in his standard four brief that he counsel erred in failing to call the witness is meritless,
was denied the effective assistance of counsel because Based on the preliminary examination testimony that the
defense counsel did not call a particular witness witness did not remember the incident, the witness
l*16Jto testify at trial. We disagree. Unpreserved would not have helped the defense. Additionally, the
claims of ineffective assistance of counsel are reviewed testimony from the preliminary examination did not
for errors apparent on the record. People v Unger. 278 assist the defense because the witness never said "little
Mich Aoo 210. 253: 749 NW2d 272 (2008). Both the Mark" and not defendant was the shooter.
United States and Michigan Constitutions guarantee the
right to effective assistance of counsel. U.S. Const, Am Defendant maintains that the prosecution's whole case
VI; Cons? 1963. art 1 $ 20. Generally, effective was built around the eyewitness's testimony and that if
assistance is presumed and the defendant carries the called at trial his witness would have testified that
burden of proving otherwise. People v LeBlanc. 465 defendant did not commit the crime. Defendant offers no
Mich 575. 578: 640 NW2d 246 (2002). When raising a proof to support his position. Defendant cites to a police
claim of ineffective assistance of counsel, the defendant report and letters from the witness; however, this was
must show: (1) that counsel's performance fell below not evidence introduced at trial or included in the lower
professional norms, and (2) that but .for counsel's court record. Defendant merely clafms that favorable
ineffectiveness, the ultimate result would have been testimony would have been offered. However, based on
different. People v Frazier. 478 Mich 231. 243: 733 the witness' unpredictability, it cannot be said how he
NW2d 713. cert den 552 U.S. 1071; 128 S Ct 712; 169 would have testified. The prosecutor indicated at the
L Ed 2d 571 (2007). In addition, the defendant must preliminary examination that the witness was expected
show that the proceedings were fundamentally unfair or to testify differently. And the witness consistently
unreliable because of counsel’s Ineffectiveness. People maintained throughout the preliminary examination that
person who committed the crime.

People v. Hanserd
he did not remember the incident. In light of the
evidence [*19] offered by the prosecution at trial and
the witness's unpredictability, defense counsel's
decision not to call the witness appears to have been a
sound trial strategy.
Affirmed.
/s/ Deborah A. Servitto
fsl E. Thomas Fitzgerald
Isl Michael J. Talbot

Knrt of tVomiicn!

